                                                                             November 22, 2013



The Hon. John Kerry, Secretary of State
The Hon. Chuck Hagel, Secretary of Defense
Dr. Rajiv Shah, Administrator, U.S. Agency for International Development


Dear Secretary Kerry, Secretary Hagel, and Administrator Shah:

I am writing to ask your organizations’ help to improve the accuracy, timeliness,
completeness, and usefulness of the data on Afghanistan reconstruction that my agency
includes in its statutorily mandated Quarterly Report to Congress. That help would be in the
form of making greater efforts to respond to data calls for our reports.

Frankly, we need better answers—a need that also involves a change in practice regarding
our interest in reviewing classified information, as described later. I am addressing you in a
single letter because this is a reporting concern that involves all of us, and because I want to
be clear that no one organization is being singled out for attention.

As background, SIGAR’s reporting responsibilities—and federal agencies’ response and
support obligations—are detailed in the National Defense Authorization Act for Fiscal Year
2008, Pub. L. 110-181, particularly in §§1229(a)(3), 1229(f)(1), 1229(h)(5), and 1229(i)(1),
which covers SIGAR’s requirement to file a very detailed Quarterly Report to Congress and
to the Secretaries of State and Defense.

In preparing its congressionally mandated Quarterly Reports, SIGAR relies heavily upon
agency responses to its data calls. SIGAR staff strive to maintain productive working
relationships with your officials and staff, and we appreciate the efforts you make every
quarter to collect, process, and forward data to us in time to meet our tight reporting
deadlines. We also recognize that collecting information from Afghanistan—often
information that relies on paper-based Afghan reports that cannot be independently
verified—can present genuine difficulties, and that issues like personnel turnover and
distractions like mandatory furlough days compound the challenges you face. We thank you
for all your good-faith efforts and your hard work in such circumstances.

Nonetheless, there have been instances where incomplete or internally inconsistent responses
and, occasionally, non-responses have engendered extra follow-up and clarification queries
to your staff. Our efforts sometimes bear no fruit, obliging SIGAR to note that it is including
incomplete or ambiguous data in its reports. Such instances diminish the usefulness of our
                                                                                    Page 2 of 5




reports for members of Congress and the public, and could possibly be construed as violating
the Inspector General Act of 1978 (Pub. L. 95-452).

A few recent examples involving data-call questions for the security, governance, and
economics sections of our Quarterly Report may clarify our concern:

SECURITY

   •   In response to SIGAR’s data call for July 2013,Combined Security Assistance
       Command-Afghanistan (CSTC-A), through CENTCOM, told us that the cumulative
       amount of U.S. funding provided to the Law and Order Trust Fund for Afghanistan
       (LOTFA) was $1.01 billion to date. In response to the same question for October
       2013, they told us the amount was $285 million, with no explanation of the disparity.
       Cumulative totals may be unchanged in a particular reporting period, but they do not
       normally shrink as time passes.
   •   In response to SIGAR data call questions about the number of aircraft in the Afghan
       Air Force, CSTC-A, through CENTCOM, has repeatedly reported aircraft which we
       have confirmed, through direct observation and IG discussions with senior U.S.
       officials in Afghanistan, are no longer in service. Sixteen C-27A cargo aircraft are
       sitting unused in a weed-covered field in Kabul because they are reportedly unsuited
       to flying in higher-elevation areas of Afghanistan. (See attached photos.) An
       additional four aircraft purchased for use in Afghanistan are sitting in a similar
       abandoned state at the U.S. Air Force’s Ramstein Air Base in Germany. Despite
       repeated emails to CSTC-A and admissions from CSTC-A action officers that those
       aircraft are no longer in service, CSTC-A continues to report those aircraft as part of
       Afghan Air Force inventory, with no explanation how abandoned aircraft ready to be
       scrapped can be so counted. SIGAR’s October 2013 Quarterly Report also noted that
       DOD revised the number of Russian Mi-17 helicopters in Afghan service from 48 to
       40 to reflect “a change in definition and [previous] double counting.”

GOVERNANCE

   •   For the October 2013 Quarterly Report, SIGAR requested information on the Afghan
       civil-service “fill rate” (percent of authorized positions actually staffed) and civil
       servants’ ability to access locations from which to perform their duties. This was to
       update October 2012 information showing vacancies 86% filled in the 14 most
       insecure Afghan provinces. We also asked how USAID determines the fill rate and
       access. USAID could not respond to the request even though the data requested relate
       to two indicators in USAID’s Post Performance Management Plan 2011-2015.
                                                                                     Page 3 of 5




ECONOMIC AND SOCIAL DEVELOPMENT

   •   In information supplied for the July 2013 Quarterly Report, USAID told SIGAR that
       52,242 households directly benefitted from IDEA-NEW (an agricultural alternative-
       livelihood program). This last quarter, they reported over 1,000,000 households
       directly benefitted. When SIGAR asked for confirmation or clarification about the
       remarkable 19-fold reported surge in beneficiaries, there was no response.
   •   USAID reported for SIGAR’s July 2013 Quarterly Report that Afghan agricultural
       exports totaled $500,000. For the most recent quarter, the export number was $5.2
       million. Asked to confirm and clarify this large increase, USAID did not respond.

I do not cite these examples to be querulous, but to point out the need for all of us to be more
diligent in providing accurate and vetted data to Congress and the public. For our part, I have
advised staff at SIGAR that we will take additional steps in reviewing data-call drafts to
ensure that we are asking pertinent and reasonable questions in a clear and manageable way.
For your part, I respectfully request that you consider whether additional steps are required to
ensure that each of your organization’s data responses are on point, accurate, and clearly
expressed.

Further, it seems clear that the drawdown will require changes in the reporting process as
Afghans assume a larger role for reporting their progress. It is therefore increasingly
important that the information we, Congress, and the American people receive through your
data responses be as accurate and responsive as possible to ensure that the U.S. investment in
Afghan reconstruction is protected during this period of transition and transformation. In
instances where information is better collected and tracked through a multilateral or Coalition
organization, such as ISAF or NTM-A, I request that the senior American official or officer
assigned to that organization be instructed to provide SIGAR with the information it requires
to meet its statutory obligations.

Change from previous practice: Please note that SIGAR’s data call for the January 2014
Quarterly Report to Congress includes questions that may require reference to classified
material. In the past, we have submitted only unclassified data to Congress, so have not
sought it from your agencies, and have accepted your staffs’ explanations that responding to
particular questions would entail using classified information.

Going forward, however, if we judge that full and useful discussion of issues requires or
would materially benefit from citing classified information, we intend to prepare a classified
annex to the Quarterly Report for separate, restricted submission to Congress, as per Pub. L.
110-181, §1229(i)(4). We therefore ask that your data responders be prepared to supply both
classified and unclassified information as appropriate in their data-call responses. All SIGAR
                                                                                     Page 4 of 5




staff who prepare our reports have security clearances. If your staffs will indicate whether
classified data will be part of your response, we will arrange for its proper transmission and
secure handling.

Thank you for your support and for your consideration.

                                                             Respectfully,




                                                             John F. Sopko
                                                             Special Inspector General
                                                               for Afghanistan Reconstruction




Enclosure: photos of unused C-27A aircraft.
                                                                                      Page 5 of 5




Figure 1: Aerial view of 16 C-27A cargo planes, purchased for Afghan military use, but now
sitting idle in Kabul because they are unsuited for flight at higher elevations in Afghanistan.




Figure 2: The Special Inspector General and SIGAR staff discussing the status of the Kabul
C-27s with members of the U.S. military during a recent inspection trip.
